February 14, 2003

JOHN A. RAPP
SENIOR VICE PRESIDENT, OPERATIONS

ANITA J. BIZZOTTO
SENIOR VICE PRESIDENT, CHIEF MARKETING OFFICER

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT:      Audit Report – Mail Product Supplies
              (Report Number AC-AR-03-002)

This report presents the results of our self-initiated review of mail product supplies. This
review was initiated as a result of our audit survey of the Postal Service Logistics
Systems (Project Number 01NR002AC002).

                                      Background

The Postal Service offers standard, specialized, and customized Priority Mail and
Express Mail packaging products to customers. These products include envelopes,
boxes, mailing labels, and tape. In fiscal year (FY) 2001, over $138 million was spent
by the Postal Service on mail product supplies. Standard packaging is available to all
customers at their local Post Office or by ordering directly from the Express and Priority
Mail supply centers. Specialized packaging is an additional selection of boxes and
envelopes for customers who can accept and store large volumes of products.
Customized packaging is available to customers who meet the minimum criteria in new
business annually, and when neither standard nor specialized packaging will meet their
needs. These three types of packaging supplies are purchased by the Postal Service
and are available at no cost to the customer.

                      Objective, Scope, and Methodology
Our objective was to evaluate how mail product supply requirements are determined
and whether the amount of supplies purchased and stored was appropriate. To
accomplish our objective, we interviewed Postal Service Purchasing, Marketing, and
district officials on their policy and procedures for product supply requirements,
budgeting, and managing excess mail product supplies in field locations. We reviewed



                                    Restricted Information
Mail Product Supplies                                                            AC-AR-03-002



and analyzed customer supply order documentation and the replenishment formula
used for forecasting future purchases for standard supplies. We interviewed Postal
Service contractors responsible for forecasting future purchases and managing
supplies. We also selected a statistical sample of 33 districts to conduct site visits, and
perform inventories of mail product supplies stored in Postal Service facilities. (See
Appendix A.)

This audit was conducted from April 2002 through February 2003, in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
conclusions and observations with appropriate management officials and included their
comments, where appropriate.

                                Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this review.

                                         Results
Our review found that mail product supply requirements were sometimes overstated.
Budget requests for mail product supplies did not consider on-hand balances of
specialized and standard packaging supplies in Postal Service facilities at the district
level. As a result, we project that approximately $1.2 million in excess standard
packaging supplies and about $430,000 in excess specialized packaging supplies could
be used to reduce mail product supply expenses for FY 2003. In addition, we found that
personnel in 12 of 33 districts had also established or maintained local product
fulfillment operations to manage excess mail product supplies. Postal Service officials
in 7 of the 12 districts estimated that $102,000 was spent during FY 2002 to manage
excess package supplies at the same time the Postal Service was paying a contractor
for this service under an existing contract.

Excess Specialized and Standard Packaging Supplies

Mail product supply requirements were sometimes overstated. We visited 33 districts to
determine the existence of excess supplies. The amount of supplies ordered from
manufacturers was based on customer orders and forecasted volume projections.
However, on hand balances for standard and specialized packaging supplies in district
Postal Service facilities were not considered when Postal Service Headquarters placed
orders with manufacturers.

We also found that procedures did not require district personnel to return excess mail
product supplies to the Express and Priority Mail supply centers. Furthermore, Postal
Service Purchasing officials were not aware that excess product supplies were on hand.
As a result, FY 2003 mail product supply orders to manufacturers were overstated and
product replenishment costs could be reduced.



                                               2
                                    Restricted Information
Mail Product Supplies                                                                   AC-AR-03-002




We project that approximately $1.2 million in excess standard packaging supplies and
about $430,000 in excess specialized packaging supplies could be used to reduce mail
product supply expenses for FY 2003. Using these supplies prior to ordering additional
supplies would allow headquarters to reduce product replenishment costs for FY 2003.
The following photo is an example of excess supplies in a Postal Service facility.




                Excess packaging supplies in storage at a district Postal Service facility

Districts are Duplicating Established Product Fulfillment Operations

District personnel in 12 of the 33 districts we visited had established local product
fulfillment operations to manage excess mail product supplies. District personnel
believed that by managing these supplies locally, they provided faster service to their
customers. Customers were either allowed to store and pick up orders from district
facilities or had orders delivered from inventory to their facilities using Postal Service
transportation. However, according to Publication 247, Supply and Equipment Catalog,
dated May 2002, customers should be ordering standard supplies through the Express
and Priority Mail supply center. Customers should be ordering specialized supplies
through Postal Service Headquarters in accordance with the Postal Service Packaging
Program Standard Operating Procedures dated December 1997.

Personnel in 7 of the 12 districts sampled estimated spending over $102,000 to manage
product fulfillment locally in FY 2002. However, the Postal Service was already paying
a contractor $28 million over 3 years to manage mail product supplies at the national
Express and Priority Mail supply centers. According to the statement of work, the
contractor is responsible for all phases of product fulfillment operations, database and
inventory management, forecasting, order processing, distribution of supplies and



                                                   3
                                        Restricted Information
Mail Product Supplies                                                         AC-AR-03-002



reporting. Therefore, districts are needlessly maintaining supplies locally. The following
photo is an example of district product fulfillment operations.




                Example of district product fulfillment operations

Recommendation

We recommend the vice president, Supply Management, and the senior vice president,
chief marketing officer:

1. Ensure that excess supplies in district offices are used prior to purchasing additional
   mail product supplies.

Management’s Comments

Management agreed with our recommendation stating that district offices will be
directed to exhaust excess inventory and enforce standard operating procedures, which
outline procedures for customer orders and maintaining supplies. Management’s
comments, in their entirety, are included in Appendix B of this report.




                                                   4
                                        Restricted Information
Mail Product Supplies                                                            AC-AR-03-002



Recommendation

We recommend the vice president, Supply Management, and the senior vice president,
chief marketing officer:

2. Reduce FY 2003 budget for standard and specialized supplies by $1.6 million.

Management’s Comments

Management stated they have reduced the FY 2003 budget to reflect the presence of
the supplies in the districts.

Recommendation

We recommend the vice president, Supply Management, and senior vice president,
chief marketing officer, in coordination with the senior vice president, Operations:

3. Discontinue district product fulfillment and enforce the requirement for Postal
   Service facilities to order mail product supplies from the Express and Priority Mail
   supply centers or Postal Service account managers.

Management’s Comments

Management stated that current operating procedures require both post offices and
customers to order from the Express and Priority Mail supply centers, and requested a
list of the facilities visited by the Office of Inspector General to begin exhausting these
supplies. Further, in discussions with Operations staff, they agreed with the response
from the chief marketing officer and actions are being taken to respond to all findings
and recommendations.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1 through 3 and the
actions taken and planned should correct the issues identified in the report.




                                               5
                                    Restricted Information
Mail Product Supplies                                                       AC-AR-03-002



We appreciate the cooperation and courtesies provided by your staff during our review.
If you have any questions or need additional information, please contact Larry Chisley
at (813) 261-5200, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Susan M. Duchek




                                             6
                                  Restricted Information
Mail Product Supplies                                                           AC-AR-03-002



       APPENDIX A. STATISTICAL SAMPLING AND PROJECTIONS


Purpose of the Sampling

One of the objectives of this audit was to determine whether the amount of supplies
stored at Postal Service facilities was appropriate. In support of this objective, the audit
team employed a stratified random sample of Postal Service districts. The sample
design allows statistical projection of the value of excess mail product supplies, in both
standard and specialized categories, nationwide.

Definition of the Audit Universe

The audit universe consisted of 81 districts. From the possible universe of 85 districts,
three Postal Service districts were eliminated from consideration because of audit
resource constraints (Alaska, Hawaii, and Caribbean), and one was eliminated because
the facility involved was not available for audit (Brentwood).

Sample Design and Modifications

The sample size was based on a stratified sample design. We calculated a desired
sample size of approximately 33 sites, to obtain a two-sided confidence interval with
20 percent relative precision at the 90 percent confidence level. The variability for the
sample size calculation came from that observed in the total value of the excess stock
(not separated into the standard and specialized categories) found at five judgmentally
selected survey sites. The five survey sites were treated as a census stratum
(stratum I), and 28 sites were randomly selected from the remaining 76 sites in
stratum II.

Selections for inclusion in the sample were made using the “randbetween” function in
Excel to assign random numbers to the items on the universe listing for stratum II.

Statistical Projections of the Sample Data

For projection of the value of excess mail product supplies (standard and specialized) in
the audit universe of 81 districts, the sample data were analyzed using the formulas for
estimation of a population total for a stratified random sample, as described in
Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott, c.1990.

The projections do not apply to the four district exceptions noted in the universe
description.

Based on projection of the sample results, we are 90 percent confident the value of
excess standard mail product supplies is between $.9 million and $1.5 million. The
unbiased point estimate is $1.2 million in excess standard mail product supplies. The



                                               7
                                    Restricted Information
Mail Product Supplies                                                            AC-AR-03-002



relative precision for this category (+/- 25 percent) is consistent with that expected for
the sample size used, given that the variability for individual categories was not
considered in the design and that the preliminary sample was a judgment sample.

Based on projection of the sample results, we are 90 percent confident the value of
excess specialized mail product supplies is between $.26 million and $.6 million. The
unbiased point estimate is $.43 million in excess specialized mail product supplies. The
relative precision for this category is poor (+/- 40 percent) because the sample size was
based on the variability observed for total excess rather than that specific to a particular
product type.




                                                8
                                     Restricted Information
Mail Product Supplies                                  AC-AR-03-002



                   APPENDIX B. MANAGEMENT’S COMMENTS




                                         9
                              Restricted Information
Mail Product Supplies                            AC-AR-03-002




                                  10
                        Restricted Information
Mail Product Supplies                            AC-AR-03-002




                                  11
                        Restricted Information
Mail Product Supplies                            AC-AR-03-002




                                  12
                        Restricted Information
